<html>
<title> - CENSUS DATA: SPECIAL ISSUES RELATED TO U.S. TERRITORIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
        CENSUS DATA: SPECIAL ISSUES RELATED TO U.S. TERRITORIES

=======================================================================

                             JOINT HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                and the

                    SUBCOMMITTEE ON INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2008

                               __________

                           Serial No. 110-84

              Committee on Oversight and Government Reform

                               __________

                           Serial No. 110-73

                     Committee on Natural Resources

                               __________

   Printed for the use of the Committees on Oversight and Government 
                      Reform and Natural Resources


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
44-911 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director
                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON INSULAR AFFAIRS

            DONNA M. CHRISTENSEN, Virgin Islands, Chairwoman
        LUIS G. FORTUNO, Puerto Rico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            Jeff Flake, Arizona
Raul M. Grijalva, Arizona            Don Young, Alaska, ex officio
Madeleine Z. Bordallo, Guam
Nick J. Rahall, II, West Virginia, 
    ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2008.....................................     1
Statement of:
    Mesenbourg, Thomas, Acting Deputy Director, U.S. Bureau of 
      the Census; and Nikalao Pula, Director, Office of Insular 
      Affairs, U.S. Department of the Interior...................    70
        Mesenbourg, Thomas.......................................    70
        Pula, Nikalao............................................    76
    Mills, Frank L., Ph.D., director, Eastern Caribbean Center, 
      University of the Virgin Islands; and Francisco 
      Cimadevilla, vice president and editor in chief, Casiana 
      Communications, Inc........................................    37
        Cimadevilla, Francisco...................................    50
        Mills, Frank L...........................................    37
Letters, statements, etc., submitted for the record by:
    Bordallo, Hon. Madeleine A., a Delegate in Congress from 
      Guam, prepared statement of................................    35
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands:
        Prepared statement of....................................    18
        Prepared statement of Mr. Tulafono.......................     9
    Cimadevilla, Francisco, vice president and editor in chief, 
      Casiana Communications, Inc., prepared statement of........    53
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Somoa, prepared statement of......................    30
    Fortuno, Hon. Luis G., a Resident Commissioner in Congress 
      from Puerto Rico:
        Letter dated May 21, 2008................................    22
        Letter dated May 21, 2008................................    85
        Prepared statement of....................................    25
    Mesenbourg, Thomas, Acting Deputy Director, U.S. Bureau of 
      the Census, prepared statement of..........................    72
    Mills, Frank L., Ph.D., director, Eastern Caribbean Center, 
      University of the Virgin Islands, prepared statement of....    40
    Pula, Nikalao, Director, Office of Insular Affairs, U.S. 
      Department of the Interior, prepared statement of..........    78


        CENSUS DATA: SPECIAL ISSUES RELATED TO U.S. TERRITORIES

                              ----------                              


                        WEDNESDAY, MAY 21, 2008

        House of Representatives, Subcommittee on 
            Information Policy, Census, and National 
            Archives, Committee on Oversight and Government 
            Reform, joint with the Subcommittee on Insular 
            Affairs, Committee on Natural Resources,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the Subcommittee on Information Policy, Census, 
and National Archives) presiding.
    Present from the Subcommittee on Information Policy, 
Census, and National Archives: Representatives Clay and Turner.
    Present from the Subcommittee on Insular Affairs: 
Representatives Christensen, Serrano, Faleomavaega, Bordallo, 
and Fortuno.
    Also present: Representative Burton.
    Staff present from the Subcommittee on Information Policy, 
Census, and National Archives: Darryl Piggee, staff director/
counsel; Jean Gosa, clerk; Alissa Bonner and Michelle Mitchell, 
professional staff members; Charisma Williams, staff assistant; 
Leneal Scott, information systems manager; John Cuaderes, 
minority senior investigator and policy advisor; and Benjamin 
Chance and Chris Espinoza, minority professional staff members.
    Staff present from the Subcommittee on Insular Affairs: 
Tony Babauta, staff director; Brian Modeste, counsel; Allison 
Cowan, clerk; and Rich Stanton, minority staff director.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee will now come to order.
    Good morning. Today's joint hearing is on the ``Census 
Data: Special Issues Related to the U.S. Territories.''
    I want to thank my colleagues on the Insular Affairs 
Subcommittee, particularly Chairwoman Donna Christensen and 
Ranking Member Luis Fortuno for agreeing to hold this joint 
hearing.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    It is an honor to team up with my good friend, Chairwoman 
Donna Christensen, on the Insular Affairs Subcommittee, for 
this hearing. Today we will examine the significance of 
creating an annual survey in partnership with the U.S. Census 
Bureau and the governments of the Virgin Islands, Guam, 
American Samoa, and the Northern Marianas.
    It is important for Congress to understand the obstacles 
presented in the insular area by the unavailability of current 
population, economy, or labor force data. Unlike the States, 
the District of Columbia, and Puerto Rico, these territories 
are forced to depend on 10-year decennial and 5-year economic 
census data to make critical policy decisions. Citizens within 
the insular areas contribute economically, socially, and 
militarily to our country. They rightfully deserve equal access 
to annual, federally sanctioned data that is accurate and 
meaningful.
    Our expert witnesses are equipped with the knowledge and 
experience to provide us with valuable insight on how this 
oversight can be corrected. I thank all for appearing and look 
forward to your testimony.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.001
    
    [GRAPHIC] [TIFF OMITTED] T4911.002
    
    [GRAPHIC] [TIFF OMITTED] T4911.003
    
    [GRAPHIC] [TIFF OMITTED] T4911.004
    
    Mr. Clay. I now recognize the ranking member, Mr. Turner, 
of Ohio.
    Mr. Turner. Thank you, Chairman Clay, for holding this 
hearing on census data and its importance to the U.S. 
territories. I would also like to welcome my friend, Ranking 
Member Fortuno, to today's hearing. Today we will examine how 
important census data is to public and private policymakers 
when it comes to key decisions regarding the U.S. territories.
    Mr. Chairman, there are many stakeholders interested in our 
hearing today. The Federal Government alone gives billions of 
dollars each year to State and local governments to spend on 
various projects that are deemed important by policymakers. 
However, States and local governments are not alone in 
receiving this aid. Much of what the Federal Government spends 
also goes to the nearly 4.5 million residents of the U.S. 
territories of American Samoa, Guam, the U.S. Virgin Islands, 
and Puerto Rico.
    I want to thank Mr. Fortuno for his tenacity on this 
important issue. Since we spend most of our time worrying about 
how census counts and data affect the 50 States and various 
local governments, we often overlook how the U.S. territories 
are treated. He is a champion of the people of Puerto Rico with 
valid arguments regarding why the territories need accurate and 
up-to-date census data.
    Besides Federal spending, private stakeholders use census 
data to make policy decisions on economic and social issues 
affecting the territories. I join with my colleagues in urging 
the Census Bureau to use reasonable means to ensure the 
residents of the U.S. territories are counted in a way that 
helps decisionmakers at all levels of Government and the 
private sector.
    Mr. Chairman, I am anxious to hear what our witnesses have 
to say and I look forward to this productive hearing. I yield 
back the balance of my time.
    Mr. Clay. Thank you so much, Mr. Turner.
    I now recognize Chairwoman Christensen.
    Mrs. Christensen. Thank you, Chairman Clay. Let me begin by 
extending my appreciation to you and the members of the 
Subcommittee on Information Policy, Census, and National 
Archives for agreeing to hold this hearing jointly with the 
Subcommittee on Insular Affairs. I would have much preferred 
that, as we had originally hoped, we would have had this 
hearing in Puerto Rico and the Virgin Islands, but, 
nevertheless, I am glad and I thank you again for helping us to 
come today to gather testimony and get into a discussion about 
the absence of data collection in the U.S. territories.
    Mr. Chairman, given the distance and time zones that 
separate Washington, DC, from our U.S. territories, I also want 
to welcome those residents from the Virgin Islands, Puerto 
Rico, American Samoa, Guam, and the Northern Mariana Islands 
who have tuned in to listen to the broadcast of this hearing 
via the Internet.
    Today we will hear from witnesses from two of the five U.S. 
territories. Each will offer their perspective on data 
collection or lack thereof in the Virgin Islands and Puerto 
Rico. It is my presumption that while there may be small 
differences, treatment of the Virgin Islands is very similar to 
her sister territories of Guam, American Samoa, and the 
Northern Marianas. Puerto Rico, however, due in part to its 
size and also an Executive order issued by the first President 
George Bush, receives more State-like treatment.
    At this time I will note that invited representatives from 
the Pacific territories were unable to travel here to attend 
this hearing, but have asked that their testimony be made a 
part of the joint hearing record. So if there is no objection, 
I would like to submit the testimony of Governor Togiola 
Tulafono of American Samoa.
    Mr. Clay. Without objection.
    Mrs. Christensen. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tulafono follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.005
    
    [GRAPHIC] [TIFF OMITTED] T4911.006
    
    [GRAPHIC] [TIFF OMITTED] T4911.007
    
    [GRAPHIC] [TIFF OMITTED] T4911.008
    
    [GRAPHIC] [TIFF OMITTED] T4911.009
    
    [GRAPHIC] [TIFF OMITTED] T4911.010
    
    [GRAPHIC] [TIFF OMITTED] T4911.011
    
    [GRAPHIC] [TIFF OMITTED] T4911.012
    
    Mrs. Christensen. Mr. Chairman, as both a delegate from the 
U.S. Virgin Islands and chairman of the Subcommittee on Insular 
Affairs, I often hear, and actually join in the chorus myself, 
in the demand for equal treatment of fellow Americans not 
residing in one of the 50 States of the Union, but residing 
instead in a state of limbo. The examples run the gamut from 
grants to treaties to voting for the next President, or even 
voting on the floor of the House of Representatives.
    In response to these demands for equal treatment, the work 
of our subcommittee, much like yours, has to investigate the 
problem and find the balance between what can be done versus 
what needs to be done. We find, more often than not, a 
willingness among honest brokers can find a path to its 
fairness.
    I look forward to our first panel of witnesses in assisting 
our subcommittees to understand the problem of excluding our 
U.S. territories in whole or in part from activities conducted 
by the U.S. Census Bureau, looking at how this exclusion 
affects local decisionmaking, how it impacts decisions at the 
national level, how it affects funding of important programs 
and services, and does it actually move our fellow Americans 
living in the territories forward.
    Our Federal witnesses have a more difficult task of 
explaining why these areas are excluded, but we feel that we 
can count on their open-mindedness and expertise to help us 
move in a fairer direction, and we already started those 
discussions.
    Again, my deepest gratitude to you, Chairman Clay, for 
agreeing to this hearing.
    [The prepared statement of Hon. Donna M. Christensen 
follows:]

[GRAPHIC] [TIFF OMITTED] T4911.013

[GRAPHIC] [TIFF OMITTED] T4911.014

    Mr. Clay. Thank you very much, Mrs. Christensen.
    I now recognize Mr. Fortuno from Puerto Rico.
    Mr. Fortuno. Let me begin by thanking Chairman Clay, 
Chairwoman Christensen, and Ranking Member Turner for calling 
this oversight hearing.
    The issue we examine at today's hearing may seem like a 
mere housekeeping problem. It is not. This disparate treatment 
afforded the U.S. territories in the collection and reporting 
of census data, and the consequent unavailability of current 
and reliable information on the territories is not an extract 
or technical issue. Rather, it is an issue with meaningful 
consequences for the residents of these areas.
    We need to determine whether our census practices have--as 
I and many others suspect--made it more difficult for Americans 
living in the territories to participate fully in the equal 
opportunity society our Nation has always strived to achieve. 
The primary question that Congress needs to ask and obtain a 
clear answer to is whether social, political, and economic 
growth in the territories is impeded because the territories 
are treated differently in the collection and reporting of 
census data and, as a result, are treated differently by the 
various Government agencies that rely on this information to 
provide services intended to benefit all Americans.
    I do not want to prejudge the testimony of the experts on 
the panel, but I am confident that today's hearing will confirm 
that the disparate treatment of the U.S. territories has an 
adverse impact on the ability of Federal and local government 
agencies to provide services in the territories, as well as on 
private sector-led development in the territories.
    Common sense and experience suggests that this information 
deficit has had and will continue to have a negative effect on 
the provision of education and health care, capital investment 
from the States and overseas, the vitality of the local 
economy, employment, and income levels, and the overall 
standard of living and quality of life of territorial 
residents. If this is the case, Congress must be prepared to 
act in order to redress this disparity.
    As Mr. Cimadevilla and the other panelists will explain, 
the situation facing Puerto Rico is not the same as the 
situation facing the other territories. For instance, Puerto 
Rico has been included in the American community survey since 
2005, a clear, although belated step in that direction. 
Nonetheless, in various ways Puerto Rico remains at a distinct 
disadvantage, compared with the States, with respect to the 
collection and reporting of demographic, social, and economic 
data.
    I would be remiss if the record did not reflect my belief 
that no matter what measures Congress adopts to address the 
particular problem discussed at this hearing, Puerto Rico will 
remain at a perpetual disadvantage unless and until it 
normalizes its political status. For the smaller territories, 
there may be narrowly tailored solutions to the problems we 
examine today. Not so with Puerto Rico. Puerto Rico's 4 million 
U.S. citizens live under the U.S. flag, under U.S. sovereignty, 
and under U.S. Federal law. The disparate treatment by the 
Census Bureau, and, therefore, by those in the public and 
private sector that utilize its data is an inevitable byproduct 
of a much larger problem: the longstanding denial of equal 
civil and political rights to the residents of Puerto Rico.
    Puerto Rico's unresolved political status is primarily a 
result of Congress's failure to fulfill its responsibility to 
sponsor a fair and orderly self-determination process on the 
island, one in which the people of Puerto Rico are able to 
express their preference between permanent constitutionally 
valid options. The only genuine solution to both the discrete 
problem we examine today and the other problem of Puerto Rico's 
political status is for the people of Puerto Rico to choose, in 
a congressionally approved process, statehood or independence, 
but in neither case to continue their condition as second-class 
citizens of the greatest democracy on Earth.
    It is my most fervent hope that the hard work of Chairwoman 
Christensen on her subcommittee will come to fruition with the 
passage of H.R. 900, the Puerto Rico Democracy Act of 2007, 
which has been reported to the House by the full Committee on 
Natural Resources.
    I want to conclude my statement by noting that earlier this 
morning I sent a letter to Speaker Pelosi, asking that she use 
her leadership to bring H.R. 900 to a vote on the House floor. 
I would ask that this letter be made part of the record of 
today's proceedings.
    Mr. Clay. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.015
    
    [GRAPHIC] [TIFF OMITTED] T4911.016
    
    Mr. Fortuno. In the coming weeks, I will deliver to Speaker 
Pelosi thousands of petitions from the U.S. citizens of Puerto 
Rico seeking her help to ensure that Congress, after more than 
100 years, finally afford the people of Puerto Rico the right 
to participate in a fully informed self-determination process. 
I will tell you what I told Speaker Pelosi. If we can summon 
the will and the courage to see it through, passage of H.R. 900 
will be remembered as one of the greatest historical 
accomplishments of this 110th Congress.
    I want to thank my colleague and friend, Jose Serrano, for 
his leadership on that part. It will end decades of 
institutionalized disenfranchisement of 4 million Americans, so 
many of whom have fought and bled and died for this great 
country. We must not leave the hard work for another day or 
another Congress. The time to act is now.
    Thank you very much.
    [The prepared statement of Hon. Luis G. Fortuno follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.017
    
    [GRAPHIC] [TIFF OMITTED] T4911.018
    
    [GRAPHIC] [TIFF OMITTED] T4911.019
    
    [GRAPHIC] [TIFF OMITTED] T4911.020
    
    Mr. Clay. Thank you very much, Mr. Fortuno.
    I would like to recognize my friend from American Samoa, 
Mr. Faleomavaega, and welcome him to the joint committee.
    Mr. Faleomavaega. Mr. Chairman, I do deeply appreciate the 
initiative that you and our chairman of our Insular Affairs 
Subcommittee have taken this morning to conduct this oversight 
hearing, and I certainly want to thank also my good friend, Mr. 
Turner, whom I have had the privilege of meeting with our 
members of Parliament from Germany just last week and, in doing 
so, sharing some common issues with the European Union 
countries. I want to thank also our distinguished chairlady, 
Mrs. Christensen, and our ranking member, Mr. Fortuno, for 
bringing this to the forefront.
    I want to associate myself with all the comments that have 
been made by Mr. Fortuno and our chairwoman, Mrs. Christensen, 
in bringing this concern to our colleagues and to the public. 
We have over 5 million fellow Americans who live out there in 
insular areas, and if you want to look at an equivalent, that 
is population of four to five States of our country, and I 
think we need to understand this.
    I want to share with you, Mr. Chairman, the statement that 
always seems to ring in my mind every time we talk about the 
issues of the needs of our insular areas, and this was stated 
by a former Member of this institution and a retired brigadier 
general from the territory of Guam, my good friend former 
Congressman Ben Blaz. He said this: ``We are equal in war, but 
not in peace.''
    So sons and daughters coming from these insular areas who 
bleed and die in the defense of our Nation, and somewhere along 
the line every time there are questions--and I realize that not 
all the provisions of the Constitution apply to fellow 
Americans living in these insular areas, kind of like a 
selective basis--sometimes Federal laws, when they come out, we 
are constantly trying to fill in the holes, the cracks, and 
saying that maybe insular areas ought to be considered on the 
same basis for the simple reason these are fellow Americans. We 
live and we bleed and we die just like our other fellow 
Americans living, just as my good friend Mr. Fortuno has stated 
in his eloquent statement.
    So I cannot thank you enough. I think this hearing was long 
over due, and I look forward to hearing from our friends 
downtown concerning this issue and see what we need to do by 
way of legislation or changing policy so that Insular Affairs 
could be given better treatment by the Census Bureau and other 
agencies that deal with collecting data and information for the 
needs of these territories.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eni F.H. Faleomavaega 
follows:]

[GRAPHIC] [TIFF OMITTED] T4911.021

[GRAPHIC] [TIFF OMITTED] T4911.022

[GRAPHIC] [TIFF OMITTED] T4911.023

    Mr. Clay. Thank you so much for your opening statement.
    Let me also ask the committee, without objection, to 
include our good friend, Mr. Serrano, from New York, who has a 
very keen interest in the territories, and I recognize Mr. 
Serrano for 5 minutes for an opening statement.
    Mr. Serrano. Thank you, Mr. Chairman. First of all, I want 
to thank the leadership of both committees for allowing me to 
sit with you today. This is an issue, as you and I have 
discussed on many occasions, of great importance to me.
    Since becoming chairman of the Appropriations Financial 
Services Subcommittee, I have joined my colleagues in trying to 
bring fairness to the territories. It is for that reason that 
the territories were included in the tax rebate program, 
because we felt that all the territories should be treated 
equally.
    I was also, as chairman, able to get legislation for 
something that I think is very important. Some may laugh at it 
when they find out, but it is including the territories in the 
quarters programs. The program was going to end this year, 
having a quarter issued for every State. It is expanded for 
another year so that the territories can get a quarter, which 
is being designed right now as we speak.
    Last, Mr. Chairman, during my time as ranking member on the 
Commerce Justice State Committee, I worked with the Census 
Bureau to try to increase the involvement of the Census Bureau 
in the territories, and I am proud to say that work led to the 
fact that, in the case of Puerto Rico and other territories, 
the Census Bureau is doing more than it had been doing in the 
past.
    But there is still something that is gravely missing, and 
that is the following. Many scholars, when I speak to them, 
bring up the fact that the Constitution speaks that the people 
of the States should be counted. Well, when the Constitution 
was written, it did not anticipate territories with citizens, 
and it certainly did not anticipate territories for 110 years 
with citizens. Territories, as Mr. Fortuno has stated, were set 
up in those days to transition folks into statehood, not to 
keep them for that long a time.
    So as far as I am concerned, fairness dictates that the 
territories be treated equally. I leave you with this thought--
and I want to preface my comments by saying that I am one of 
the leaders on the House floor on behalf of the rights of 
undocumented aliens. But just think of this. An undocumented 
alien who lives in New York gets counted as part of the 300 
million folks who live in this country, but the 4 million 
citizens who live in Puerto Rico don't get counted as far as 
the national population. So when we say, for instance, that we 
have 35 million, for argument's sake, Hispanics in the Nation, 
not true; we have about 39 to 40 million, except that the 
territories are not counted. When we say we have roughly 300 
million Americans, not true; we have 304.5 million.
    So part of what I would like to see is not only the surveys 
that move to bring fairness to the territories in terms of the 
proper information, but also that everybody under the American 
flag gets counted as part of the American family. And I thank 
you, Mr. Chairman.
    Mr. Clay. Thank you so much for your statement.
    Last but not least, I would like to recognize my friend 
from Guam, Ms. Bordallo, if you have an opening statement.
    Ms. Bordallo. First, I want to thank you very much, Mr. 
Chairman, and you, Chairwoman Christensen, for convening this 
joint oversight hearing today to examine the issues affecting 
the fulfillment of the mission of the Bureau of Census with 
regard to the territories. I certainly agree with much that has 
been said by my colleague, Mr. Serrano, this morning.
    This is a very important subject because the work and the 
products of the Census Bureau are routinely relied upon by 
decisionmakers in both the public and the private sectors to 
make informed decisions about finances, organization of 
resources, and employment, among other matters.
    The Census Bureau performs a critical role in the 
functioning of our society today, and its work in partnering 
with the territories to collect and disseminate data deserves 
to be strengthened. We know the Census Bureau has a long 
history and that, since its inception, it has adapted to meet 
the needs and the challenges of a growing country and responded 
to emerging demands for information about demographic and 
socioeconomic trends in population.
    The territories must not--and I repeat that--must not be 
left behind as the Census Bureau prepares the decennial census 
required by our Constitution and its development of other 
special surveys. The territories present unique challenges, 
including multicultural and multilingual populations, as well 
as geographic disbursement of our populations, in some cases 
among several islands. Furthermore, there is a serious void in 
historical data for the territories, as we looked at it today.
    So this makes sound public policy decisionmaking very 
difficult and sometimes results in disparities in treatment of 
Americans residing in the territories, as compared with 
Americans residing in the 50 States under certain Federal 
programs. So I look forward today to the testimony, and I am 
most interested in learning how the Census Bureau plans to 
address the important issues that the Governors and the 
committees have raised.
    Further, I hope that Chairwoman Christensen will keep the 
record open for written responses to some concerns and other 
Members may wish to make regarding the work of the Office of 
Insular Affairs to conduct the enumeration of citizens of the 
freely associated States who reside in Guam, the Commonwealth 
of the Northern Marianas Islands, the State of Hawaii, and 
American Samoa. I know that this enumeration is not the main 
focus of today's hearing, but it is nonetheless a relevant and 
timely issue, and I would appreciate the opportunity to receive 
responses for the record.
    So, again, I thank you, Chairman Clay and Chairwoman 
Christensen, for holding this hearing and for your work on this 
issue of great national significance.
    [The prepared statement of Hon. Madeleine A. Bordallo 
follows:]

[GRAPHIC] [TIFF OMITTED] T4911.024

[GRAPHIC] [TIFF OMITTED] T4911.025

    Mr. Clay. Thank you very much for the opening statement.
    If there are no more opening statements, we will now 
proceed with testimony from the witnesses. I want to start by 
introducing our first panel.
    We will hear first from Dr. Frank Mills, director of the 
Eastern Caribbean Center at the University of the Virgin 
Islands. Dr. Mills serves as the Virgin Islands contact for the 
Federal-State Cooperative Program for Population Estimates, an 
information cooperation between the Federal Government and the 
States in the area of local population estimates. Dr. Mills 
also serves as director of the Virgin Islands Census Data 
Center. As director of the Data Center, Dr. Mills works closely 
with the U.S. Census Bureau in preparation of the content of 
census questionnaires. Dr. Mills has also served as Operations 
Supervisor and Manager for Census. Thank you for appearing 
before the subcommittee today.
    Our final witness on the first panel is Mr. Francisco 
Cimadevilla, vice president and editor in chief of Casiana 
Communications, Inc. Prior to becoming VP and editor in 2004, 
Mr. Cimadevilla served as editor of Caribbean Business, the 
leading business newspaper in Puerto Rico and the Caribbean, 
published by Casiana Communications, Inc. Mr. Cimadevilla has 
held several key roles that have given him insight on 
economics, including Assistant Secretary of State for Caribbean 
Basin Affairs at the Department of State in San Juan, Puerto 
Rico; as Chief Officer for Economic Development Policy at the 
Department of Economic Development and Commerce; and as Deputy 
Secretary of that Department.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify. I 
would like to ask all witnesses to please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    I ask that each witness now give a brief summary of their 
testimony and to keep their summary under 5 minutes in 
duration. Your complete written statement will be included in 
the hearing record.
    Dr. Frank Mills, we will begin with you. Welcome to the 
committee.

    STATEMENTS OF FRANK L. MILLS, PH.D., DIRECTOR, EASTERN 
    CARIBBEAN CENTER, UNIVERSITY OF THE VIRGIN ISLANDS; AND 
  FRANCISCO CIMADEVILLA, VICE PRESIDENT AND EDITOR IN CHIEF, 
                  CASIANA COMMUNICATIONS, INC.

                  STATEMENT OF FRANK L. MILLS

    Mr. Mills. Good morning, Mr. Chairman and Madam Chairwoman 
and members of the subcommittees. My name is Frank Mills and I 
am professor of social sciences at the University of the Virgin 
Islands and director of the Eastern Caribbean Center, a social 
research unit of the University responsible for conducting the 
decennial census for the U.S. Virgin Islands. I appreciate the 
opportunity to appear before you today.
    I have spent the last 29 years of my professional career 
working on census related activities. I therefore ask 
permission to include the full written statement into the 
hearing record.
    The principal method the U.S. Government uses to distribute 
a wide variety of assistance to States and local governments 
depends in very large measure on data derived from the 
decennial census. This system makes sense for all of the 
obvious reasons. Doing it any other way would likely be 
disproportionate, unfair, and inadvertently discriminatory. 
This very workable reliance on accurately gathered data is 
applied to every one of the 50 States and to Puerto Rico. It is 
not applied to the island areas.
    As a citizen, resident, and principal demographic 
researcher in the U.S. Virgin Islands, I can testify that, by 
applying a whole different approach to us alone, we are 
deprived access to all kinds of Federal assistance. This 
includes full use of Medicaid, programs to assist children and 
families such as child poverty, and support programs for the No 
Child Left Behind Act. With annual data, we would be able to 
assess local needs such as where new roads, schools, and senior 
citizen centers should be located.
    National organizations and foundations also use the ACS to 
determine funding. For example, a recent health initiative by a 
major national foundation overlooked the USVI because our 
numbers were not in the American community survey on which they 
based their grant decisions. We are not only among the poorest 
communities in the Nation, with approximately 30 percent of the 
population living below the poverty level, but are also denied 
the tools on which to accurately assess our need and justify 
the assistance our people greatly need. Many of these issues 
could be resolved if the Virgin Islands were included in the 
American community survey.
    I was delighted to note, when reading the Acting Deputy 
Director Mesenbourg's prepared statement, that he agrees these 
problems could be largely resolved by including the Virgin 
Islands in the ACS. He does note, however, that the Census 
Bureau appears to lack the funds to implement the extension of 
the ACS to the Virgin Islands. But we would have heard this 
many times before. It is difficult to know for certain how to 
break this barrier, but agencies are well known for finding the 
money for projects they want to accomplish and having a 
difficult time finding the money for projects to which they 
give a low priority.
    Or is the way to deal with this for Congress to direct the 
agency to do what Mr. Mesenbourg says would be good policy? If 
necessary, perhaps Congress should undertake to determine 
whether the Census Bureau needs additional funding to do this. 
Out of simple fairness to the people of the Virgin Islands, 
enabling them to access funding that all other Americans can 
access would seem to be the only honest and fair thing to do.
    I also note that the Acting Deputy Director has outlined in 
his written testimony the general procedure for the conduct of 
the decennial census in the Virgin Islands. However, there are 
some specific suggestions that I wish to submit that I strongly 
believe can improve or minimize the disparities in the 2010 
census process between the States and the USVI. We suggest 
that: one, advertising plans allow more local input to maximize 
our knowledge of the territory; two, that the current 
technology combined with recent digital aerial photography be 
utilized to remedy the difficulties associated with map-
spotting households; three, that data coding be carried out by 
locals; and, four, that 2010 census products include a 
publication of cross-tabulation of the more relevant 
demographics, social, and economic housing data.
    Finally, I want to address a common misconception. Contrary 
to the perception that a mass address list does not exist for 
the Virgin Islands, we would point to the fact that during the 
decennial census an a 100 percent address list developed. 
Simply put, the Virgin Islands will compile an address list.
    In summary, the USVI seeks statutory language requiring the 
Census Bureau to include the USVI in the American community 
survey in 2011.
    Mr. Chairman, Madam Chairman, thank you for conducting this 
important hearing. We are encouraged, indeed, by this 
initiative. I am prepared to answer any questions that you may 
have.
    [The prepared statement of Mr. Mills follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.026
    
    [GRAPHIC] [TIFF OMITTED] T4911.027
    
    [GRAPHIC] [TIFF OMITTED] T4911.028
    
    [GRAPHIC] [TIFF OMITTED] T4911.029
    
    [GRAPHIC] [TIFF OMITTED] T4911.030
    
    [GRAPHIC] [TIFF OMITTED] T4911.031
    
    [GRAPHIC] [TIFF OMITTED] T4911.032
    
    [GRAPHIC] [TIFF OMITTED] T4911.033
    
    [GRAPHIC] [TIFF OMITTED] T4911.034
    
    [GRAPHIC] [TIFF OMITTED] T4911.035
    
    Mr. Clay. Thank you so much, Dr. Mills.
    Mr. Cimadevilla, you have 5 minutes.

               STATEMENT OF FRANCISCO CIMADEVILLA

    Mr. Cimadevilla. Good morning, Mr. Chairman Clay, Madam 
Chairwoman Christensen, distinguished members of both 
subcommittees. Thank you very much for the opportunity to 
appear before you during this joint hearing to examine the 
disparate treatment of the U.S. territories by the Census 
Bureau and the unavailability of current or reliable data of 
these areas.
    My name is Francisco Cimadevilla. I am vice president and 
editor-in-chief of Casiana Communications, the largest Hispanic 
owned publisher of magazines and periodicals in the United 
States, headquartered in San Juan, Puerto Rico, and editor-in-
chief of its flagship weekly newspaper, Caribbean Business, the 
largest circulation business publication in Puerto Rico and the 
Caribbean.
    My comments this morning will focus on the subject matter 
as it pertains to Puerto Rico only, and will not address or 
refer to other U.S. territories or outlying areas.
    The first census conducted in the United States in 1790, 
just a year after the inauguration of our first president and 
shortly before the end of the second session of the 1st 
Congress convened of the republic. Those historical facts 
evidence the importance our founding fathers attributed to the 
census process as an indispensable tool to make sound decisions 
regarding the future of the Nation.
    Under the general direction of Thomas Jefferson, then 
Secretary of State, marshals the census not only in the 
original 13 States, but also in the districts of Kentucky, 
Maine, and Vermont, and the southwest territory of today's 
Tennessee.
    When results came in, both Washington and Jefferson 
expressed skepticism over the final count, expecting a number 
that far exceeded the 3.9 million inhabitants returned by the 
census.
    Curiously, 210 years later, the most recent census 
conducted in the land counted 3.9 million inhabitants in the 
territory of Puerto Rico alone, the same number reported by the 
first census for the entire U.S. population.
    The concerns that probably motivated Washington and 
Jefferson's skepticism--that is, quality, reliability, and, 
most importantly, completeness of the data collected by the 
census in order to make decisions about the future of the 
Nation--are the same concerns that I respectfully bring to your 
attention today in relation to the specific case of Puerto 
Rico.
    So I thank you, Mr. Chairman and Madam Chairwoman for your 
leadership in addressing this important issue in this hearing.
    Collection of reliable data, its thorough analysis, and the 
appropriate and timely dissemination of accurate reports based 
on those data are essential to responsible decisionmaking not 
only by elected and appointed government officials, but by the 
private sector as well.
    As you well know, census data are critical to fair 
representation of the population in this House of 
Representatives, but it is also important for the fair 
distribution of Federal funds among all entitled U.S. citizens, 
the adequate planning of capital improvement projects, and many 
other Federal Governmental functions. But, further, accurate 
census data are equally essential to economic development 
efforts of State governments, including those of the 
territories, as well as sound business decisions by the private 
sector throughout the country, including Puerto Rico.
    Puerto Rico is not new to the census. The U.S. War 
Department conducted a census in the territory in 1899, just a 
few months after Spain ceded the island to the United States as 
a result of the Spanish-American War.
    Starting in 1910, the U.S. Census Bureau has been 
conducting decennial census of population and housing in Puerto 
Rico. From 1960 to 1990, Puerto Rico used the decennial census 
questionnaire that was different from the one used in the 
States, presumably to address Puerto Rico's unique needs.
    But as Puerto Rico became more integrated to the national 
economy over time, the local government realized that equality, 
standardization, and integration with national census data were 
more important for all the U.S. citizens residing in Puerto 
Rico than unique needs.
    In 1997, thus, the government of Puerto Rico requested the 
Census Bureau that the same decennial questionnaire content 
used stateside be used in Puerto Rico.
    Thus, census 2000 was the first time the Census Bureau and 
Puerto Rico really experienced the benefits of standardization.
    There is no question that standardization has been 
beneficial to both the U.S. census and Puerto Rico. For the 
2000 decennial census, for example, the Census Bureau released 
the census data products of Puerto Rico at the same time as in 
the States, avoiding lateness by making the census statistics 
available at an early stage for the community of data users 
when comparable with previous decennial censuses where the 
census standard products of Puerto Rico were released much 
later than in the 50 States.
    Still, there are areas with respect to the decennial census 
in which Puerto Rico is at a disadvantage compared with the 50 
States in relation to demographic, social, and economic data.
    Perhaps the most vexing problem regarding the accurate 
reporting of census data pertaining to Puerto Rico is the utter 
lack of consistency in their inclusion in national totals.
    In its Decision Memorandum No. 64 of 1999, the Census 
Bureau stated that Puerto Rico would be shown in all census 
2000 national summary tables of population and housing 
characteristics, but not included in the national totals ``for 
reasons of statistical consistency with other government 
agencies such as the Bureau of Labor Statistics.'' Frankly, 
that rationalization sort of begs the question before this 
committee.
    Furthermore, with the data collected through the decennial 
census and other surveys, the Bureau prepares multiple reports 
through the Special Tabulation Program. Many times these 
reports are financed by other Federal agencies and many times 
they just decide not to include Puerto Rico.
    As we understand it, the format and whether or not data 
totals include the territories or not seems to depend on the 
whim of the question sponsor or data requester.
    One of Puerto Rico's big frustrations is that many end 
products do not include the island with the States, even when 
the data have been collected and there appears to be no 
rational analytical basis for the discrepancy. Excluding Puerto 
Rico, or any jurisdiction for that matter, makes for both bad 
policy and bad business decisions, since such exclusion 
undermines the ability to ascertain risks and benefits, and 
thus make rational judgments.
    At a minimum, it would be desirable if, for every Census 
Bureau table covering the States, Congress required that the 
end product included a grand total for all States, the District 
of Columbia, and the insular areas, and perhaps also subtotals 
for, one, all the States; two, the District of Columbia; and, 
three, all insular or outlying areas, with a breakdown by area. 
This would allow both Congress and the Executive to enact 
policy on the basis of the grand total, while keeping a tally 
of the numbers for the States alone for any legitimate reason 
for which such subtotals should be used.
    Mr. Chairman, Madam Chairwoman, in the interest of time, I 
will bring my testimony this morning to a quick conclusion and 
call your attention to the full length written testimony I have 
submitted to the committee staff, which I ask respectfully be 
made part of the record of this hearing. In it, I address 
issues and concerns regarding the disparate treatment of Puerto 
Rico by the Census Bureau in its other data collection and 
reporting activities beyond the decennial census, such as the 
current population survey, from which Puerto Rico is excluded, 
the American community survey, Current Employment Statistics, 
and the all-important economic census.
    Finally, let me just say that our concerns are not limited 
to the Census Bureau data collection and reporting only, but 
extend to other areas of Federal data collection and reporting. 
For example, reports published by the Centers for Medicare and 
Medicaid routinely exclude Puerto Rico. Excluding Puerto Rico 
from these reports is like excluding Maine, New Hampshire, and 
Vermont, since Puerto Rico has more Medicare recipients than 
those three States combined.
    Being excluded from the U.S. census reports and any other 
disparate treatment of Puerto Rico as compared with the States 
means that the U.S. citizens of Puerto Rico are often not 
considered when proposals are presented, policies analyzed, and 
legislation approved. Therefore, I respectfully urge you to 
take appropriate legislative action so that the Census Bureau 
and other Federal agencies take the appropriate measures to 
include the same data and analysis for Puerto Rico as they do 
for the 50 States so that when Congress makes a decision 
regarding the future of the Nation, Puerto Rico is taken into 
consideration on an equal basis.
    U.S. citizens living in the U.S. territory of Puerto Rico, 
whether island-born or born stateside, deserve nothing less 
than equal treatment. Washington and Jefferson, Mr. Chairman, 
would have expected nothing less from any of us. Thank you very 
much.
    [The prepared statement of Mr. Cimadevilla follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.036
    
    [GRAPHIC] [TIFF OMITTED] T4911.037
    
    [GRAPHIC] [TIFF OMITTED] T4911.038
    
    [GRAPHIC] [TIFF OMITTED] T4911.039
    
    [GRAPHIC] [TIFF OMITTED] T4911.040
    
    [GRAPHIC] [TIFF OMITTED] T4911.041
    
    [GRAPHIC] [TIFF OMITTED] T4911.042
    
    [GRAPHIC] [TIFF OMITTED] T4911.043
    
    Mr. Clay. Thank you so much, Mr. Cimadevilla, for your 
testimony, and Dr. Mills, for such informative testimony.
    We will now move to the question period from Members and 
proceed under the 5-minute rule.
    We will start with Dr. Mills. You have traveled quite a 
distance to be here today and I want you to know that the 
subcommittee appreciates your being here to discuss this 
important issue. We know that data collected and published by 
the U.S. Census Bureau is used by many decisionmakers. Could 
you tell the subcommittee about the specific data requests that 
you are not able to fill because you do not have current data 
from the Census Bureau?
    Mr. Mills. If I may couch the response in terms of the many 
programs which do not benefit from Federal funding because the 
data that are available in the Virgin Islands are too little 
data or they just don't exist. My testimony included some 
specifics, as in the case of a large initiative from which we 
were recently excluded, because we were not included as part of 
the ACS.
    In general, the worst aspect of all of this is as time 
proceeds from the decennial itself, the funding allocation to 
the Islands remain fixed at the 2000 census, so that 5, 10, 9 
years later, the Virgin Islands is still receiving funding 
based on population figures that may be up to 10 years old.
    Mr. Clay. That is the greatest challenge, really, that you 
don't have up to date and current figures.
    Mr. Mills. That is correct.
    Mr. Clay. In your testimony you speak of the impact of 
resource allocation to the Virgin Islands. In your professional 
opinion, how much money in Federal funding do you believe the 
Virgin Islands have forfeited due to a lack of an annual 
verifiable survey conducted by the Bureau?
    Mr. Mills. Mr. Chairman, it is rather difficult to suggest 
a figure, but I would suggest there are two ways of looking at 
this. First of all, as I have indicated, there are those 
programs which do not get funding based on current data. But 
also there are many areas in which, for example, the Islands do 
not derive benefit simply because there are that many programs 
which don't even know that the Virgin Islands is part of the 
Federal system and, as a result, we never know what that figure 
is. So it is rather difficult to suggest an overall figure, but 
we know it is enormous.
    Mr. Clay. How much does it cost for the University to 
conduct a Virgin Islands community survey?
    Mr. Mills. Right now, the local government contributes 
about $100,000 annually. The University itself does not include 
the cost of the time of its workers, which could easily be 
another $50,000. So just in terms of personnel cost alone, we 
are talking just about $150,000 to do that on an annual basis.
    Mr. Clay. Thank you so much for that answer.
    Mr. Cimadevilla, thank you for being with us today, as 
well, and for your testimony. The examples you provided help to 
illuminate many of the points that have been made here today. 
Can you tell the subcommittee a little more about how your 
industry uses census data and about the impact of late or 
inaccurate data on decisionmaking?
    Mr. Cimadevilla. Thank you, Mr. Chairman, for that 
question. In the specific case of Caribbean Business, being a 
business publication, I should say that a vast constituency in 
Puerto Rico relies on the ability of business press to put 
forth the kinds of economic data and information they need in 
order to make their decisions. They, unlike academics or 
researchers, business people do not necessarily have access or 
don't look for access of data of this sort, so they rely on 
what, for example, publications like Caribbean Business publish 
in terms of what are the latest in the economy and so on.
    Let me just add that there is another constituency that is 
being underserved by having less than equal data collection and 
reporting by the census, and that is the U.S. business 
community as a whole. I can tell you, from our point of view, 
we report on this all the time. When people--businesses, 
business leaders, boards of directors--are looking for a new 
location, for example, for their business, they have to conduct 
market research. If the data are not available with respect to 
a particular area to be able to be compared to other areas they 
may be considering, that area is at a disadvantage in terms of 
its potential for economic development. So, therefore, in the 
case of Puerto Rico, not having up-to-date information at par 
with that is available for the other States puts Puerto Rico at 
a disadvantage in its effort to promote economic development.
    Mr. Clay. Thank you so much for your answer.
    I recognize my friend from Puerto Rico, Mr. Fortuno, for 5 
minutes.
    Mr. Fortuno. Thank you, Mr. Chairman.
    I want to thank the panelists for making the trip over 
here. I find both presentations intriguing and, actually, they 
add to the record as to the point we want to make.
    Mr. Cimadevilla, in your testimony you talked about the 
current population survey [CPS]. What kind of information does 
the CPS collect exactly and why is it important to include the 
territories for the decisionmaking process that you were 
talking about?
    Mr. Cimadevilla. The current population survey is a monthly 
survey of 50,000 households that is conducted by the Bureau of 
the Census for the Bureau of Labor Statistics. The survey has 
been conducted for more than 50 years. Its primary source of 
information are the labor force characteristics of the U.S. 
population. Estimates obtained from the current population 
survey include employment, unemployment, earnings, hours of 
work, other indicators. They are available in a variety of 
demographic characteristics, including age, sex, race, marital 
status, so on, so forth.
    So the CPA's data are used by government policymakers and 
legislatures as important indicators of the Nation's economic 
situation and for planning and evaluation of many government 
programs. And, of course, they are used by the press, students, 
business leaders, etc.
    Mr. Fortuno. You also mentioned current employment 
statistics and the fact that the territories are excluded. What 
kind of employment statistics, then, would Puerto Rico have? 
And, if I may, I would like to ask Mr. Mills the same question 
to understand what is the disparity here.
    Mr. Cimadevilla. Well, current employment statistics are 
collected in Puerto Rico, but the national CES employment 
estimates exclude the workers from Puerto Rico. So BLS 
cooperates with the Puerto Rico Department of Labor to collect 
the data and publish employment estimates independent of 
national estimates.
    Mr. Fortuno. Mr. Mills, the USVI?
    Mr. Mills. This is an issue that goes back as far as 1980 
that I can recall having a discussion with the Director of 
Labor Statistics in the Virgin Islands, and that was the need 
to have more precise data than were actually collected at the 
time and still are collected. The data on employment derived 
largely from administrative records. But like the CPS, our 
Virgin Islands community survey is able to reach a group that 
administrative records is not able to reach, and I refer 
specifically to the disgruntled workers who never go to 
government agencies or undocumented workers who don't ever go 
to any kind of government agency. Hence, the unemployment data 
that are collected by the Bureau of Labor Statistics reflect 
accurately on what the unemployment situation is and there is 
only a sense of that deriving, then, from the Virgin Islands 
community survey, which is not supported by the Federal 
Government in any way at all.
    Mr. Fortuno. Thank you, Mr. Mills.
    Just to make sure, Mr. Cimadevilla--and that is my last 
question--you have a specific suggestion that there be a grand 
total for all States in terms of the Census Bureau tables and 
that we break it down by territories and the District of 
Columbia. Do you see, from your perspective--and I will ask the 
question to the next panelists--the reason why that cannot be 
done today?
    Mr. Cimadevilla. I wouldn't be able to answer that. I don't 
know.
    Mr. Fortuno. Thank you.
    Thank you and I yield back.
    Mrs. Christensen [presiding]. Thank you, Mr. Fortuno.
    And thank you, panelists, Dr. Mills and Mr. Cimadevilla. 
Thank you for your thoughtful and very comprehensive 
testimony--I did have a chance to read it--and for your 
specific recommendations.
    Mr. Mills, I just have to make this comment, because you 
said in your testimony that OIA's stopping the collection of 
data in the middle of your collection was a statistician's 
worst nightmare, but it really sounds like the whole history of 
the territories dealing with data is a nightmare. In our cases, 
first BLS rejects the request for inclusion in current 
population survey, then census stops publishing intercensal 
data; OIA changes the kind of data we should collect and later 
stops funding this. And then, to add to that, we are told we 
can't have ACS because we have no address system, which is not 
a fact.
    When you do the VI community survey, are you saying that 
even though it is done, there is no way to get it included into 
the national census data?
    Mr. Mills. That is correct. The Census Bureau does not 
officially recognize locally collected data such as VICS. 
Unless they collect it themselves, by which they are able to 
verify all the methodologies that are associated with ACAS and 
CPS and all those, they are not accorded any sort of validity.
    Mrs. Christensen. OK, so, some discussions are beginning, 
and it will probably come up in the next panel, that maybe 
census would pay for it, and I guess that might have it 
included, or your recommendation is that we be included in the 
American community survey.
    Mr. Mills. Yes.
    Mrs. Christensen. Mr. Cimadevilla, if you want to respond 
to this as well.
    We would lose some of our flexibility in designing our 
form, but we would be included, as I understand it, then, in 
this data set that everyone looks at. Do you have any concerns 
about losing that flexibility if we went to the ACS, as you 
recommend?
    Mr. Mills. Madam Chair, the Virgin Islands used the same 
census long form that stateside used up until 1980. In 1990 and 
2000, two or three questions relating specifically to the 
Virgin Islands were included. If the choice is between being 
included in ACS and retaining our unique questions, obviously, 
the Virgin Islands would want to opt for the inclusion of ACS 
because the advantages clearly outweigh the disadvantage of 
having two questions unique to the Virgin Islands.
    Mrs. Christensen. So, Mr. Cimadevilla, in 1997 you went to 
ACS.
    Mr. Cimadevilla. Yes.
    Mrs. Christensen. Did you lose anything in the process?
    Mr. Cimadevilla. I don't believe so. As a matter of fact, 
for the census 2000, in order to retain the possibility of 
Puerto Rico-specific data, the government of Puerto Rico 
entered into a Memorandum of Agreement with the Census Bureau 
establishing for any expansion programs, such as supplementary 
questionnaires and/or special tabulations, requested by the 
government of Puerto Rico would be evaluated and paid for by 
the government of Puerto Rico. So we have retained the 
possibility of collecting Puerto Rico-specific data so long as 
we are willing to pay for it, of course.
    Mrs. Christensen. Dr. Mills, I have two Virgin Islands 
questions. One, you might recall that after the 2000 census the 
Concerned Virgin Islander group had some concerns about being 
able to identify themselves as Concerned Virgin Islanders. I 
know you reached out to them. You probably haven't heard much 
back from them. But can that be addressed in the current census 
coming up?
    Mr. Mills. Madam Chair, I don't think that it might be 
possible at this point in time, since the content questionnaire 
has already been fully established and I think has already been 
submitted. So it would be too late for inclusion in the 2010 
census questionnaire.
    Mrs. Christensen. But my understanding is that you did 
inquire prior to the form being finalized?
    Mr. Mills. Yes. My office did attempt to find that out, 
yes, Madam Chair.
    Mrs. Christensen. And just one last one, and another local 
question from our Hispanic community. There were some concerns 
also that the Hispanic community may have been under-counted in 
the Virgin Islands. On their behalf, I would like to know what 
is being done to reduce the under-count, if you agree that one 
occurred, and ensure that this population is accurately 
counted. Are you planning to include Latinos among the persons 
hired for the 2010 census staff, as well as persons who are 
fluent in Spanish? And do you plan on having the questionnaires 
in both languages?
    Mr. Mills. Thank you for the question, Madam Chair. I would 
like to do full justice to that question, but I will try to 
summarize it, and I will introduce it by saying if in fact we 
did have an ACS in the Virgin Islands, we would have a good 
sense of how the ethnic makeup of the Islands is changing. 
Having the decennial census once in 10 years does not allow the 
Census Bureau to determine ahead of time what that makeup is, 
and that is largely perhaps what may have contributed to less 
than full appreciation of the existence of Hispanics in the 
Virgin Islands population.
    At the risk of appearing defensive, we did not have any 
evidence that there was an under-count of the Hispanic 
population in 2000. However, in preparation for 2010, the 
Census Bureau has already determined that it will issue 
questionnaires in Spanish. We have, additionally, invited a 
Hispanic to be on the Census Interagency Committee, which now 
exists, and, in fact, we will make every effort to also include 
representatives from St. Croix to be on that panel. The 
difficulty there, of course, is that there is no common funding 
source to bring Hispanics from St. Croix to St. Thomas when the 
Interagency Committee meets. But there is every indication that 
we will make additional efforts to include not only Hispanics 
in a more expansive way in the 2010 census, by having Spanish-
speaking interviewers--and we did in 2000--but we will 
certainly put more concentrated effort there to ensure not only 
the inclusion of Hispanics in a solid way, but any other 
language besides English.
    Mrs. Christensen. Thank you, Mr. Mills.
    The Chair now recognizes Mr. Faleomavaega for his 
questions.
    Mr. Faleomavaega. Thank you, Madam Chair. Just a couple of 
questions.
    My understanding, in layman's terms, is I think the Census 
Bureau currently conducts about three or four major surveys 
that kind of make up the whole system. Here we have the current 
population survey--is it an acronym, is that how you say it? I 
am still learning how to speak English here, CPS, and then 
there is a survey of income and program participation [SIPP], 
and there is the American community survey [ACS], and then the 
mid-decade survey. Am I right? How many other surveys besides 
these three or four fundamental surveys are you aware of?
    Mr. Mills. The Agriculture census, which was mentioned.
    Mr. Faleomavaega. Oh, Agriculture. OK.
    Mr. Mills. And the business economic census.
    Mr. Faleomavaega. OK, my next question is I am just going 
to do my own survey with both Puerto Rico and the Virgin 
Islands. Do you have CPS?
    Mr. Mills. No, sir.
    Mr. Cimadevilla. No.
    Mr. Faleomavaega. Good. I have a negative here. Do you have 
SIPP?
    Mr. Cimadevilla. We do.
    Mr. Mills. Once in 10 years.
    Mr. Faleomavaega. Once in 10 years? OK. Do you have ACS?
    Mr. Cimadevilla. No.
    Mr. Mills. No.
    Mr. Faleomavaega. OK, good. Do you have mid-decade survey?
    Mr. Mills. No, sir.
    Mr. Faleomavaega. OK, good. Puerto Rico does?
    Mr. Cimadevilla. Mid-decade survey? Are you referring to 
the economic census?
    Mr. Faleomavaega. According to my survey, American Samoa 
has none of these. So I think I made 100 percent check on this 
thing.
    A lot of times I think I noticed, too, that maybe the 
substance of the Federal law, where the Secretary of Commerce 
is given discretionary authority, and that discretionary 
authority many times just simply wipes us out, simply because 
we can't justify it because this threshold sometimes I hear so 
much about, if you don't have a population level of 100,000 or 
something like that, forget it, they are not going to do 
anything with you. Do you think that is fair?
    Mr. Cimadevilla. Obviously not. I don't think that is fair.
    Congressman, if I could enlarge a little bit on your line 
of questions. Let me suggest for the committee to examine 
beyond just whether a particular survey is being conducted in a 
particular territory. I think you ought to also focus on the 
accuracy and the timeliness of the reporting. For example, in 
Puerto Rico, the Census Bureau does conduct economic census, 
but regularly reports on those series come out at least a year 
after they come out with respect to the 50 States, which is 
difficult to understand since it is a much smaller population. 
Not only that, there are issues about the accuracy, for 
example. When I say a year after, bear in mind the 2002 
economic series, the manufacturing report with respect to 
Puerto Rico came out 34 months after the data were collected.
    Mr. Faleomavaega. Well, I don't mean to interrupt you, but 
the bottom line is that you are just not getting the services. 
I mean, that is in layman's terms. I am just being very basic 
about this. Four point 4 million U.S. citizens living in Puerto 
Rico, and in many instances in my home of Butre, they are like 
a foreign country. And by being in that, as far as any sense of 
priority or any sense of importance to these 4.4 million 
Americans--and we have to look at Puerto Rico in a different 
category because the rest of us in the insular areas are much 
smaller in terms of population. So totally understandable. 
Puerto Rico, if it would become a State tomorrow, it would have 
seven Members of Congress and two Senators. That is equivalent 
to four or five populations of States. So I just want to get 
this on the record. The bottom line is that we are constantly 
being put between the cracks, and either anybody pays any 
attention, the bottom line is I don't think--and our good 
friend from the Census Bureau is going to testify later. I am 
sure it is not out of their hearts that they hate us, but it is 
just simply the Federal law being inconsistent, so it comes 
right back to the Congress, really, in my humble opinion.
    Mr. Cimadevilla. Let me add that it is not just the 
citizens resident in Puerto Rico that are disadvantaged. The 
American business community is at disadvantage when reliable 
and timely economic data out of the territories are not 
available to them to make decisions.
    Mr. Faleomavaega. Let me just make this observation, Madam 
Chair. I think my time is just about over. My little territory 
is about 70,000 people, and 16 of my soldiers died in that 
terrible war that we caused in Iraq. Now, I don't know about my 
other fellow sister territories in terms of the casualties per 
capita, but I think we contribute pretty high amount of the 
blood that is spilled on behalf of our Nation; and let alone 
about 30 or 40 are wounded. I just had to go to Walter Reed 
Hospital about 2 weeks ago; one of my soldiers seriously 
wounded from IED.
    These are the types of things that sometimes it saddens me 
that on one instance--and I go back to my good friend General 
Blaz's statement. ``We are equal in war, but not in peace.'' 
And I think we need to remedy this, Madam Chair.
    Thank you so much, and I thank both gentlemen for their 
testimony.
    Mrs. Christensen. Thank you, Mr. Faleomavaega.
    The Chair now recognizes Chairman Serrano for his 
questions.
    Mr. Serrano. Thank you so much. I couldn't help but think, 
as I heard my friend from American Samoa speak, how some of the 
inconsistency of the whole relationship--which is not what we 
are discussing today, but, nevertheless, inconsistent. Just 
think, if you were born in Mayaguez and stay in Mayaguez, you 
have certain rights. If you move to the Bronx, you can run and 
be a Member of Congress. So it just doesn't make sense at 
times.
    You know, both of you spoke about the lack of data playing 
a role in being able, obviously, to deliver services. Is that 
for all services or do services that come directly from the 
Federal Government get better treatment? I will explain. Both 
parties--and I say this with respect--in Congress, both parties 
go out of their way to say that we support the troops more than 
the other party. Yet, I wonder if the Veterans Administration 
has the same information on the territories than it has in the 
50 States, and how that would affect the services that are 
provided. Do you have any thoughts on that?
    Mr. Mills. If I may, sir. I can remember specifically 2 
years ago there was an effort to establish a monument to 
soldiers who had died in St. Croix, and my office was tasked 
with getting that information, and we sought the assistance of 
all the Federal agencies, including the armed forces, that we 
knew were supposed to have that information, and we came up 
with so little that the effort could not go forward. That is a 
bit disgraceful.
    Mr. Serrano. It is.
    Mr. Cimadevilla.
    Mr. Cimadevilla. In my testimony I made reference to the 
case of Medicare and Medicaid. Those reports that are published 
by the Centers of Medicare and Medicaid routinely exclude 
Puerto Rico. I don't know if it is a crick in the neck 
situation, but does the present unequal treatment to Puerto 
Rico with respect to Medicare reimbursements, for example, is 
it a reflection that Congress is less aware about the needs of 
a Medicare population there that, as I mentioned in the 
testimony, adds up to more than those of Maine, New Hampshire, 
and Vermont combined? Notwithstanding the leadership or 
Congressman Fortuno on this effort, and I know you are familiar 
with it too, the push from Puerto Rico to get equal treatment 
in Medicare I think is a reflection of that problem.
    Mr. Serrano. Let me ask you a question, and the way I want 
to ask you the question is do you agree with me or not. And 
feel free to disagree with me; it is not a problem. I get 
angry, I cry, but it is not a major problem. [Laughter.]
    When the Constitution was written, it said to count the 
people amongst the States. As I said before, it never 
envisioned territories being held a long time, but it certainly 
never envisioned citizenship or American nationals, as in 
Samoa, living in these territories. So my question is if you 
were asked to interpret that Constitution now--since the 
Constitution is a living and evolving document--wouldn't you 
agree with me that Constitution does not stop the territories 
from having their population included in the general population 
of the 50 States? Of the Nation, if you will.
    Mr. Mills. I would go back, and have gone back, to Title 
13, as Title 13 spells that it is possible for the Department 
of Commerce to get involved and to conduct censuses and surveys 
in small local areas, government areas. It does not exclude any 
of the small island governments. And yet the Secretary of 
Commerce does not see fit to extend any of these services to 
the Islands except the decennial census.
    Mr. Cimadevilla. Ultimately, Congressman, it may be a 
semantic problem between counting and counting in. Is the 
constitutional mandate to count the people in the States or 
count them in? It appears that in many respects the citizens of 
the territories are being counted but not necessarily counted 
in.
    Mr. Serrano. I would agree. Just in conclusion, my argument 
has always been--and I will reiterate it for the third time 
today--that if you decided years ago to give out American 
citizenship in territories, then you can't have a subtotal, and 
that is what we have now. Our great victory in the last few 
years--and I thank the Census Bureau. I have a great 
relationship with the Census Bureau. In fact, my dear friend, 
Tom Mesenbourg, is here today and we will hear from him later, 
and I appreciate his presence here. But this whole idea, you 
talk about differing kinds of citizenship. We have always 
complained about second class, third class, whatever. Well, 
think of the fact that you have a total of people who live in 
the United States, again, as I said, including people who are 
not citizens and people who are not here documented. Then you 
have another number sort of as a second total, but never really 
part of the family. That makes no sense mathematically and, as 
you have stated, creates other issues. My belief is that if you 
are living under the American flag, if you are covered by the 
American Constitution, if you are a citizen or a national, you 
should be counted in the total number. I thank you.
    Thank you, Chairwoman.
    Mrs. Christensen. Thank you.
    I know that Dr. Mills has to leave. I just had one last 
question before I dismiss the panel.
    You mentioned the kids count survey, which has been very 
important in the territory in recent years. Could you just give 
us a short minute on the importance of the survey and how the 
current situation of only the 10 year population on household 
survey impacts that?
    Mr. Mills. Kids count survey or databook, as we call it, is 
designed to be part of the national Kids Count idea, supported 
largely by the Annie E. Casey Foundation. But the Foundation 
does not provide enough funding to collect the kinds of data 
that are necessary to produce these indices. So Kids Count, 
therefore, uses all VICS data to base some of these indices. 
But as I said previously, unless these kinds of data have the 
imprimatur of the Census Bureau, they are not treated with the 
degree of validity that Kids Count would say that they require 
to have it as part of the national design. So, in that sense, 
the Virgin Islands data are not a part of that wider system 
and, as a result, we don't get the understanding of the well-
being of our children in the same way that those from Kentucky 
or any other States, for that matter, would have.
    Mrs. Christensen. The ACS would fix that?
    Mr. Mills. Absolutely would.
    Mrs. Christensen. OK, thank you.
    If there are no further questions, I would like to thank 
the panel for their testimony. It has been very helpful. The 
committee may have further questions, which we would submit to 
you in writing and ask that you respond in turn.
    Mr. Mills. I would be glad to respond.
    Mr. Cimadevilla. Thank you very much.
    Mrs. Christensen. Thank you very much.
    We will now hear from the witnesses on our second panel. 
Our first witness will be Mr. Thomas Mesenbourg, Acting 
Director of the U.S. Bureau of the Census. The Deputy Director 
is the Census Bureau's Chief Operating Officer overseeing the 
day-to-day operations of the Government's preeminent 
statistical agency. Mr. Mesenbourg has served as Associate 
Director for Economic Programs, a post he has held since August 
2005. In that position, he was responsible for the economic 
census, the census of governments, and more than 100 monthly, 
quarterly, and annual surveys. Mr. Mesenbourg has worked at the 
Census Bureau since 1972.
    Our second witness will be Mr. Nikalao Pula, Director of 
the Office of Insular Affairs of the Department of the 
Interior. Mr. Pula is the first Pacific islander of Samoan 
ancestry ever to serve as the Director. As the OIA Director and 
Acting Deputy Assistant Secretary, Mr. Pula advises the 
Secretary on operational and administrative matters involving 
Federal policy in the insular areas. The office of Insular 
Affairs is the executive branch's liaison organization with 
four of the five principal U.S. insular areas--American Samoa, 
Guam, the Commonwealth of the Northern Marianas, and the U.S. 
Virgin Islands--and the three freely associated States. Mr. 
Pula joined the Department of the Interior in 1993.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify. I 
realize that you stood the first time, but we are just going to 
go through it again, in keeping with the wishes of the chair. 
So would you please rise?
    [Witnesses sworn.]
    Mrs. Christensen. Let the record reflect that the witnesses 
have answered in the affirmative.
    You may be seated. I ask that each witness now give a brief 
summary of their testimony and keep the summary within 5 
minutes, please. Your complete written statement has been 
submitted and will be included in the hearing record.
    Mr. Mesenbourg.

 STATEMENTS OF THOMAS MESENBOURG, ACTING DEPUTY DIRECTOR, U.S. 
  BUREAU OF THE CENSUS; AND NIKALAO PULA, DIRECTOR, OFFICE OF 
        INSULAR AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

                 STATEMENT OF THOMAS MESENBOURG

    Mr. Mesenbourg. Thank you. Madam Chairwoman, distinguished 
subcommittee members, thank you for the opportunity to discuss 
the Census Bureau's programs in the U.S. territories.
    There are two major programs that the Census Bureau 
conducts on a regular basis in the territories: the economic 
census and the decennial census. The economic census is 
conducted every 5 years, collecting data for years ending in 2 
and 7, and covers the U.S. Virgin Islands, the Commonwealth of 
the Northern Mariana Islands, Guam, and American Samoa, and 
Puerto Rico. The economic census in these areas are very 
similar to the stateside economic census.
    The decennial census is conducted every 10 years. Much of 
the content for each island is very similar. However, there are 
accommodations made depending on the needs of each government. 
For the Pacific areas--that is, American Samoa, Guam, and 
CNMI--the content is negotiated so that one set of questions 
will be asked in all three areas. The content for the U.S. 
Virgin Islands is developed specifically to meet that 
government's needs.
    For the 2010 census in the island areas, each housing unit 
will be personally visited by an enumerator. In addition, the 
housing unit's address will be listed and its location will be 
identified on a census map, allowing the Census Bureau to 
establish an address register for each island.
    Well, when considering whether or not to conduct new 
surveys, it is important first to determine what type of data 
are needed, how those data are going to be used, and for what 
purposes. We also would consider frequency, data availability 
and reliability, and the capability of being able to publish 
data that meets our confidentiality standards. These are just a 
few of the considerations we take into account when determining 
the design and content of new collections.
    For data collections between censuses, we use statistical 
samples to reduce both the reporting burden and to lower cost. 
Most of our business surveys are mailed out-mailed back. Many 
household surveys, however, are conducted by telephone or by 
enumerator. That, of course, is considerably more expensive 
than a mail out-mail back survey.
    Well, what could we do more frequently? We may be able to 
expand at a relatively modest cost the county business patterns 
report to include the island areas. This expansion would 
provide annual data on payroll, number of employees, and the 
number of establishments or business locations by economic 
sector in each of the islands. A more expensive option would be 
to conduct an annual economic survey of each of the island 
areas. These would be a unified survey similar to the economic 
census, but with scaled back content to control costs and 
improve timeliness.
    On the household side, beginning after the 2010 census, a 
variation of the American community survey might be considered. 
The methodology employed would be to repeat the 2010 census 
methods, but only for a sample of the population, not a full 
enumeration. One challenge with this approach is developing and 
maintaining the address frame needed to select a sample in each 
of the islands. Another challenge, of course, would be building 
a field infrastructure, including finding office space, hiring 
employees, and so forth.
    These are some initial thoughts about what we would need to 
do to provide more current information on the island areas. We 
would be happy to work with the Congress, other Federal 
agencies, and the island area governments to better understand 
their data needs and to explore ways that we could provide 
assistance. More detailed discussions are required before we 
can really develop actual detailed plans and cost estimates.
    This concludes my remarks, and I would be happy to take any 
questions. Thank you.
    [The prepared statement of Mr. Mesenbourg follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.044
    
    [GRAPHIC] [TIFF OMITTED] T4911.045
    
    [GRAPHIC] [TIFF OMITTED] T4911.046
    
    [GRAPHIC] [TIFF OMITTED] T4911.047
    
    Mr. Clay [presiding]. Thank you so much, Mr. Mesenbourg.
    Mr. Pula, you may proceed.

                   STATEMENT OF NIKALAO PULA

    Mr. Pula. Mr. Chairman, Madam Chair, and members of the 
subcommittee, thank you for the opportunity to testify on the 
important issue of lack of current and complete information on 
population, labor force, and economic and social 
characteristics in the U.S. territories of American Samoa, 
Guam, U.S. Virgin Islands, and the CNMI.
    The Office of Insular Affairs is often asked for statistics 
on the U.S. territories, but often the information is either 
dated or does not exist.
    Knowing the value of current information, the Federal 
Government continuously generates a wide array of information. 
Best known of the Federal Government agencies that generate 
information: the Bureau of Labor Statistics in the Department 
of Labor and the Bureau of Census in the Department of 
Commerce, and also the Bureau of Economic Analysis, also in the 
Department of Commerce.
    Unfortunately, the four U.S. territories OIA works with are 
not included in some of the most useful work these agencies do. 
This was recently highlighted in the U.S. Department of Labor 
Report on the impact of minimum wage increases in American 
Samoa and CNMI. Labor noted many holes in current data that 
prevented the Department from making a full determination of 
the impact of an increased minimum wage. Specifically, the 
Department of Labor noted ``The Bureau of Labor Statistics does 
not collect monthly or other period data describing labor 
market conditions in either American Samoa or the CNMI.''
    Another important source of current data according to the 
report is the monthly survey of households conducted jointly by 
the BLS and Bureau of Census in their current population survey 
[CPS]. The report notes ``Both surveys have been important 
sources of data for research regarding the impact of minimum 
wage increases in the United States over the past 50 years. The 
lack of such data for American Samoa and CNMI significantly 
impairs efforts to measure or to project the impacts of 
scheduled minimum wage increases for these territories.''
    Apart from conducting decennial census, the Bureau of the 
Census conducts other surveys. One of the best known and most 
useful is the American community survey, which is designed to 
see how those communities are changing. The ACS will replace 
the decennial long form in the future censuses and is a 
critical element in the Census Bureau's re-engineered 2010 
census. The four territories we work with are not included in 
the ACS.
    The four territories are also not included in the BEA 
system of national income and product accounts, which generates 
complete information on total national output. According to 
information on the BEA Web site, territories are not treated as 
domestic output but, rather, as belonging to the rest of the 
world. As a result of this dearth of information, policy 
decisions often lack the level of data and analysis that 
underpin decisions in many other areas of the United States.
    An additional problem with the lack of territorial 
involvement in these data gathering activities is the resulting 
inability of local statistics offices and staffs to draw on the 
knowledge and skill pools found in statistics national 
community. Working with highly trained professionals could 
prove advantageous to the territories and territorial statistic 
staffs.
    Over the last decade, OIA has given over $5 million to the 
Bureau of the census and the territories in technical 
assistance grants to fill some of the information gaps. This 
technical assistance, however, has been insufficient to bring 
the territories to national standards.
    Current and complete information is essential for good 
decisionmaking, whether in business, government, or households. 
For this reason, we believe that there is a significant need to 
flexibly work with the territories to integrate them into the 
national data gathering framework. We stand ready to work with 
the territories and agencies responsible for data collection to 
find alternative ways to gather necessary information.
    Thank you.
    [The prepared statement of Mr. Pula follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.048
    
    [GRAPHIC] [TIFF OMITTED] T4911.049
    
    [GRAPHIC] [TIFF OMITTED] T4911.050
    
    [GRAPHIC] [TIFF OMITTED] T4911.051
    
    Mr. Clay. Thank you both so much for your testimony. We 
will begin the 5-minute questioning.
    Let me start with Mr. Mesenbourg. I want to congratulate 
you, first, on your recent promotion to Acting Deputy Director 
of the Bureau, and I look forward to working with you to ensure 
a complete and accurate decennial census, and on other 
censuses, including surveys that address the specific data 
needs of the insular areas.
    You stated in your testimony the work on the economic and 
decennial censuses of the island areas are collaborative 
efforts between the Census Bureau and the local governments. 
What should be the first step toward the development of annual 
surveys that are tailored to the needs of each island area?
    Mr. Mesenbourg. Thank you, Mr. Chairman. I think the first 
order of business is to ensure that the Census Bureau is clear 
on what the data needs are for the island area. We need to be 
clear in terms of what data they want to collect, how those 
data are going to be used, and for what purposes they are going 
to serve. Then more detailed discussions would be involved at 
what level of detail do you want to be able to publish the 
information. If it is a household survey, do we need below 
island level detail, do we need it for towns or election 
districts, or whatever the appropriate unit is. For business 
surveys it would be a similar process. In my written testimony 
I had suggested that I thought the most cost-effective way to 
provide annual economic data was to take an approach similar to 
the economic census, and that way I think we would be much more 
assured that it was meeting the needs of the local area.
    So I think really a meeting and a clear understanding of 
what the requirements are is the first step.
    Mr. Clay. Wonderful. And who would be the best person for 
the governments of the island area to contact and how soon can 
conversations begin?
    Mr. Mesenbourg. OK, in terms of household surveys, we are 
working with all of the island areas on implementing the 2010 
decennial census, and what we are suggesting is to leverage the 
work that we are going to do in 2010 specifically in developing 
a master address file in each of the islands and then, after we 
have done that, work with the areas to developing a process for 
maintaining and updating that address file so we can then do 
annual surveys. So the basic approach is do 2010 and then think 
of an annual household survey after that.
    Mr. Clay. Any idea of how much money Congress needs to 
appropriate to create annual surveys with content specifically 
tailored to meet the data needs of each island area?
    Mr. Mesenbourg. I don't have a cost estimate right now. 
Some will depend on the level of detail. I can tell you that 
for the economic census--and this also includes Puerto Rico--
over a 5-year period we are spending about $9 million on that 
data collection. Now, what is not included in that number are 
things such as postage and data capture, because we cover those 
costs as part of the entire stateside economic census too. We 
would want to work with the island governments to make sure 
that we have their data needs, and then we would develop a cost 
estimate. I believe we would have a bit of time to do that if 
we are talking, on the household side, post-2011 in terms of 
implementing. But we could certainly get you a cost estimate 
well before then.
    Mr. Clay. Thank you for your response.
    Mr. Mesenbourg. On the business it would just depend 
exactly what they would like. Our plan is not to collect the 
same level of detail as we collect in the economic census, 
because if we do we are going to face some of the same 
timeliness problems that you heard about earlier.
    Mr. Clay. Thank you so much for that response.
    Mr. Pula, with the Office of Insular Affairs, being the 
authority on policy affecting the insular areas, it is 
reasonable to assume that you get a lot of requests for data 
regarding the insular areas. Can you tell us approximately how 
many requests you get and the type of data that is most 
commonly requested, and how many of the requests are from 
government agencies?
    Mr. Pula. Thank you, Mr. Chairman. We usually get requests 
from all seven jurisdictions, the four U.S. territories who we 
deal with and also the three freely associated States and all 
governments. We do not have earmarked money for all these 
requested censuses, but every year, because we want to help out 
with the different surveys, in the last several years we have 
worked closely with the Office of International Program Center 
at the Census Bureau and we provide some money to them when the 
requests from the islands come to us to do some of these 
surveys. We have been averaging, I would say, the last 5 years 
between $500,000 and $700,000, close to $900,000 money from our 
limited technical assistance pot to help the islands do some of 
these surveys with the help of the Census Bureau.
    Mr. Clay. Thank you for that response.
    Right now I will go to Mr. Fortuno for 5 minutes.
    Mr. Fortuno. Thank you, Mr. Chairman. I want to thank the 
panelists again for their insightful testimony this morning.
    First, if I may, I would like to begin by commending 
Director Mesenbourg for your 36 years of service at the Bureau. 
All of us realize that the hard work you do at the Bureau is 
very important; otherwise, we would not be here today seeking 
to understand and to improve, certainly, how the Bureau 
collects and reports data on the U.S. territories. I have 
several questions that I would like to pose to you regarding 
Puerto Rico in particular, and the other expert on the panel 
should feel free to add anything, Mr. Pula.
    First, I would like to hear, Director Mesenbourg, your take 
on Mr. Cimadevilla's argument, which I find, I will say, quite 
compelling, that for every Census Bureau table covering the 
States, Congress should require that the final product include 
a grand total for all States, the District of Columbia, and the 
territories, and perhaps also subtotals for all States, D.C., 
and the territories, with a breakdown by area. As Mr. 
Cimadevilla testified, this would enable the Federal Government 
to make policy on the basis of the grand total, while also 
keeping a tally of the numbers for States alone for use for any 
purposes.
    Actually, if I may, Mr. Chairman, I would like to include 
in the record a letter that I received today from AARP 
supporting, actually, an idea somewhat similar to this, if I 
may.
    Mr. Clay. Without objection, it will be part of the record.
    Mr. Fortuno. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4911.052
    
    Mr. Fortuno. Do you see any good reason why Congress cannot 
or should not require this approach be adopted? And is there 
anything preventing OMB or the Census Bureau from adopting this 
policy in the absence of legislation expressly requiring it to 
do so?
    Mr. Mesenbourg. Thank you. I will answer that. First, let 
me answer from the perspective of economic statistics. As you 
all are probably aware, we collect detailed statistics on all 
primary economic sectors, so we have monthly and annual surveys 
of retail trade, wholesale trade, manufacturing, services. 
Something that people may not understand, our current surveys 
are designed to provide national level estimates for the United 
States, so they exclude Puerto Rico and they exclude the U.S. 
territories. But that is done because it significantly--let me 
just clarify what that means, actually. So when we select the 
sample and we go to a firm that has locations scattered across 
the United States, say a large discount department store you 
might think of, we do not collect data for each location in our 
current surveys. Rather, they report a national level estimate 
of retail sales that includes all of their operations in the 
States.
    So we do not publish any detailed State level, county 
level, or whatever in our current economic statistics programs, 
with the exception of the County Business Patterns Program. 
That program is a bi-product of our business Register. So we do 
have businesses that operate in Puerto Rico, and the island 
areas are included in our business Register, and we tabulate 
that information and publish that annually. And Puerto Rico is 
covered annually in the County Business Patterns Program. It is 
not included in the U.S. total, but the data are separately 
available.
    So this would be a huge undertaking and I think an 
extremely expensive undertaking to redesign all of our current 
surveys, and that is really the impetus that I suggested a 
unified survey like the economic census be targeted to each of 
the island areas. That way I think it would better meet their 
needs and we would be able to implement such a program.
    So just to be clear on the question, we do not have State 
level data for almost all of our current economic surveys, so 
this would be a huge undertaking, that suggestion.
    Mr. Fortuno. By the same token, a lot of data that is 
collected at the national level excludes the island 
territories, including Puerto Rico, even when we are talking 
about population, and, actually, Mr. Faleomavaega was talking 
about military service. Puerto Rico has the second highest rate 
of military service in the country, and we do that with pride 
and courage and valor. Certainly, no one is thinking about 
whether it will take a lot of effort for us to actually serve 
at such a high level for freedom and democracy as we do 
throughout the world.
    So do you have any specific thoughts as to how we can, in 
the most efficient way, include fully those territories? 
Certainly, I am interested in Puerto Rico, which is the 
largest, but certainly all the territories in this process.
    Mr. Mesenbourg. Well, I don't have specific proposals 
related to including it in the U.S. total. I do have ideas how 
we could provide current information on the island areas, and 
that would be to implement annual economic surveys in each of 
those island areas and publish that data annually. Post-2010, 
to implement an ACS-like survey in each of the islands. I am 
certainly not a constitutional scholar, so I am not going to 
offer any opinions related to including the territories in the 
total at this point.
    Mr. Fortuno. Thank you.
    Mr. Clay. Thank you so much, Mr. Fortuno.
    Now Chairwoman Christensen, you are recognized for 5 
minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Thank you, Mr. Mesenbourg and Mr. Pula.
    Mr. Pula, representing the Department that has oversight 
for the territories, is it the position of the Department of 
the Interior that the United States has a responsibility to 
further the social, economic, and political development of the 
territories that Labor and Census and all of those departments 
that conduct surveys ought to include the territories?
    Mr. Pula. Well, since the Department of the Interior is 
part of the administration, as well as our folks from Labor and 
Census, we speak with the same language. Your question is 
whether the territories should be included in the information 
of statistic data----
    Mrs. Christensen. The ACS, the CES, the CPS, all of that 
information that is so important to the rest of the United 
States, should it not also be compiled for the territories?
    Mr. Pula. OK, let me answer it this way. Because of the 
requests that come from these jurisdiction areas on an annual 
basis, from the Governors writing and asking us for 
information, it is pretty apparent to us, our office at OAA and 
the Department of the Interior, that they have a need. One of 
the things that we have done is to try to create the capacity--
and like I mentioned earlier, we worked with the Census Bureau 
to have a program where the folks from the island, the 
Statistics Office can come on an annual basis and some of the 
Census Bureau national information. So just to answer your 
question simply, yes, to the extent that this information is 
needed in the areas.
    Mrs. Christensen. It is needed. I think we could probably 
establish that it is needed.
    Mr. Mesenbourg, I have heard that some of the surveys may 
be a variation on what is done in the States or cut back or 
ACS-like survey. If it is not exactly what is done in the 
United States, is it going to be included when all that data is 
published? And I am also seeming to hear that the national data 
is just the 50 States and the territories should be separate. I 
don't understand that.
    Mr. Mesenbourg. Let me talk first of the ACS. What we were 
proposing and I used the term ACS-like to provide flexibility 
to the territories related to the content. It probably would be 
quite similar to the stateside ACS survey, but there may be 
special needs that need to be addressed, and that is the reason 
I used ACS-like in that.
    Mrs. Christensen. I am concerned that the delays that Dr. 
Mills talks about, when it is not the exact same thing. If we 
are willing to give up a little flexibility to get our data 
published in a timely manner and be there with everybody else, 
when everyone is looking at this data for programs, for 
funding, for whatever, can we----
    Mr. Mesenbourg. OK, I will answer that. If the Census 
Bureau conducts this ACS survey in the island areas, it will be 
official Census Bureau statistics and we will stand 100 percent 
behind the statistics. I think it is a different issue whether 
the island totals should be included in the U.S. total or 
should be provided separately and people have the capability of 
adding it into the total. And that is not an issue I have a 
view on at this point.
    Mrs. Christensen. OK. You did say you are recommending 
discussions go forward and those kinds of issues can be decided 
in those issues.
    Mr. Pula, could you explain why OIA canceled the collection 
of the data back a few years ago?
    Mr. Pula. Basically, we did not----
    Mrs. Christensen. In the middle of the collection of the 
data.
    Mr. Pula. Of the data for the survey in the Virgin Islands 
you mean?
    Mrs. Christensen. Yes.
    Mr. Pula. It was a matter of priority in terms of the money 
that we were spending for the surveys in each of the areas. I 
do not think we canceled it. We have negotiated with the Census 
Bureau, the Office of International Program Center, through an 
MOU or reimbursable agreement, and some of these surveys they 
were doing we had to kind of wait and see where they are in the 
other areas because they only have limited people that go to 
the areas. So we did not cancel it, we just had to postpone it.
    Mrs. Christensen. My last question, Mr. Mesenbourg, in the 
States you do sampling. In the Virgin Islands, and I assume the 
other territories, you have to do 100 percent. Is there any 
possibility that we could also do sampling instead of doing 100 
percent?
    Mr. Mesenbourg. Ms. Chairwoman, I certainly do believe 
there are possibilities. The reason we cannot use sampling in 
the 2010 census, for example, is because we haven't updated and 
maintained the address file in between the two censuses. As 
part of doing the 2010, we will establish an address file for 
each of the island areas, and that is what we are suggesting. 
Working with the islands, we would look to see if we could use 
probably area sampling, rather than a complete enumeration, 
which will cut costs and also improve the timeliness.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you so much, Chairwoman.
    Mr. Burton, do you have any questions?
    Mr. Burton. First of all, I want to apologize for my 
tardiness, so if I ask some questions that sound redundant, 
forgive me.
    Mr. Clay. We will let you catch up to speed.
    Mr. Burton. You will let me catch up? OK.
    Mr. Clay. Yes, I will let you catch up.
    Mr. Burton. First of all, I was not aware that the 
collecting of census data was that much different than it is in 
the 50 States, but evidently there is some disparity there. So, 
real briefly, could you tell me why that disparity exists and 
what impact it has on the people who are living there as far as 
the delivery of goods and services from the U.S. Government?
    Mr. Mesenbourg. Well, I will answer the first part in terms 
of what data we do collect and what data we don't collect for 
the island areas.
    Mr. Burton. Well, let me put it this way. Is the data 
consistent with the data that you collect from the 50 several 
States?
    Mr. Mesenbourg. The data are consistent that we collect in 
the decennial census and the economic census. What we collect 
in the island areas is consistent and quite very similar to 
what we collect for mainland United States.
    Mr. Burton. Well, why is it that Mr. Fortuno and others 
from the islands--Guam, American Samoa, Puerto Rico--why is it 
they have concerns about the problems or the disparities that 
exist between how people in the 50 States are treated and how 
they are in the islands?
    Mr. Mesenbourg. Well, the biggest issue is one of 
frequency. So under existing programs there are household data 
available for the island areas once every 10 years as part of 
the decennial census, and that is what we were suggesting----
    Mr. Burton. How does that differ from the 50 States?
    Mr. Mesenbourg. The 50 States, it is really an issue of the 
coverage of the American community survey.
    Mr. Burton. I mean, there is different data collected at 
different times in the 50 States as compared to the islands. 
Why is that?
    Mr. Mesenbourg. Well, when we first started the ACS 
program, we had no master address files for the island areas, 
so that was the original decision point not to cover them.
    Mr. Burton. Is that still the case today?
    Mr. Mesenbourg. That is still the case today.
    Mr. Burton. So what you are saying is you don't have the 
information that is necessary for you to give the same kind of 
treatment as far as this data is concerned as you do in the 
States.
    Mr. Mesenbourg. We don't have the infrastructure in place 
to provide the same----
    Mr. Burton. Well, how do you solve that problem, if you 
can?
    Mr. Mesenbourg. What we were suggesting was to build and 
update and maintain an address file for each of the island 
areas after the 2010 census, and then implement an ACS survey 
in each of the island areas on an annual basis after that.
    Mr. Burton. How long has this been a problem, how many 
years?
    Mr. Mesenbourg. Well, we have never----
    Mr. Burton. Ad infinitum?
    Mr. Mesenbourg. Yes.
    Mr. Burton. Well, if that is the case, why haven't we tried 
before now to try to correct that? I mean, it seems to me we 
have had a census--I was chairman of this committee for 6 years 
when we had the last decennial census. It seems like every 10 
years we have this. Why haven't we tried to solve this problem 
with the islands before? And the reason I ask is because there 
is a disparity in goods and services and the way they are 
treated, and it doesn't seem like it should be that way. Let me 
give you an example.
    I went to Guam with the representative from Guam, and they 
have an epidemic of diabetes over there, and they didn't have 
enough dialysis machines to take care of the population. They 
were running those things 24 hours a day, 7 days a week, and 
they still couldn't take care of the population. We tried to 
get $8 million to buy additional dialysis machines, which took 
us about 3 or 4 years to get done. We finally did, but it seems 
to me that ought to be something that would be in the normal 
course of events, that we would take care of the people who are 
American citizens, and not having them being second class 
citizens, as they were in Guam. So why does it take so long to 
get the information that is necessary to treat them equally?
    Mr. Mesenbourg. One would be a function of resources. And 
if there is a clear need for this data and the resources are 
provided, I think we have suggested a plan that would start 
addressing this data gap both on the household side and the 
economic census side.
    Mr. Burton. Well, see, that is troubling to me because we 
are not talking about people who are not citizens. These are 
citizens of the United States of America, and for us to say we 
don't have the resources to get this data really kind of 
troubles me. I know they are not States and I know they don't 
have some of the benefits that they would have if they were 
States, but, nevertheless, they are American citizens, and for 
us not to give them the same basic things that we are giving to 
American citizens in the 50 States doesn't make sense to me. 
And when you say you don't have the resources, it seems to me 
that is something that we should address immediately, or should 
have addressed before now. The next 10 years after this 
decennial census, are we going to be in the same boat, where we 
say, hey, we don't have the resources to take care of the 
things necessary to give them the same treatment that we are 
the people of the 50 States? These are American citizens, and 
we ought to make sure they get the same benefits and equality 
that we do up here.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you so much, Mr. Burton.
    I recognize Mr. Faleomavaega for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I want to thank both gentlemen for their testimony this 
morning.
    Mr. Mesenbourg, I know this is not a personal reflection on 
anything in terms of one of our most standing leaders in the 
Census Bureau, but I want to share with you a couple of 
statements made as part of the statement submitted by our 
Governor for the record. This is in reference in dealing with 
the Census Bureau: ``The Census Bureau trusts the local 
government to conduct the census and to uphold the law when 
collecting information. However, once enumeration is completed 
and all forms have been sent to the Census Bureau, the local 
government is deliberately, deliberately prevented from 
accessing census details to compile statistical reports or to 
conduct detailed analysis and special tabulation.'' And then 
under other conditions, American Samoa is included in the 
domestic process during the preparation and carrying out of the 
census enumeration, but, unfortunately, it is treated under the 
international program. Can you help me reconcile this action or 
conduct on the part of the Census Bureau?
    Mr. Mesenbourg. Certainly. Let me address the first point. 
It really has to do with the confidentiality that is afforded 
census data once we collect it, and what we promise the 
respondent, whether household or business, is that we will 
publish only aggregate data, and we will not identify the 
individual location of any business or any household. So once 
we have collected the individual data, whether on a household 
survey or an economic census survey, that is considered Title 
13 data and the only people that actually can access that data 
are Census Bureau employees. So I believe that is the answer to 
the questions. Once we have collected all the data and we have 
these microdata files, then they are Title 13 data and we go to 
great lengths to protect the confidentiality of it.
    Mr. Faleomavaega. All right, but isn't the whole purpose of 
collecting data and information to help these various 
territories and States? Let's talk about economics I am having 
a terrible time just dealing with the issue, as Mr. Pula 
indicated earlier, about the minimum wage issue that is now 
going to cause economic chaos, as far as I am concerned, with 
CNMI and my own territory, and the problem was we couldn't get 
proper data and information from the Bureau of Labor 
Statistics, Department of Labor, let alone we don't even have 
enough information coming from the Census Bureau. So we are 
right back at square one.
    And I cannot thank my good friend from Indiana for raising 
the point. There definitely is a disparity here. If we are 
willing to do a complete survey of all these three or four 
major surveys with the States--and this is not a negative 
reflection in any way to a State like Wyoming, with 522,000 
people, how is that different if we are going to deal with 
Puerto Rico, with 4.4 million? Why do we have to have an MOU to 
deal with the territories? Would you support, maybe just do a 
little amendment to include the insular areas with these three 
or four major surveys that the Census Bureau conducts?
    Mr. Mesenbourg. Well, the Census Bureau serves as the 
collection agent for the CPS. The Bureau of Labor Statistics 
actually is the sponsor of the program. So in terms of 
covering----
    Mr. Faleomavaega. Do you realize--I don't mean to interrupt 
you--we cannot even, the Federal Government and even the U.S. 
Congress cannot make a determination what our economic 
situation is right now not only in American Samoa, but also for 
CNMI because of these disparities in statistics both from the 
Labor Department, as well as from the Census Bureau. What would 
be your recommendation to the Congress, given the fact that we 
are in this dire straits right now, trying to determine what 
our economy is?
    Mr. Mesenbourg. All right, I don't think I am in a position 
to speak for what the Bureau of Labor Statistics can do one way 
or another. We certainly will work with them----
    Mr. Faleomavaega. All right, let's deal with census.
    Mr. Mesenbourg. With the census, I think the most effective 
thing we could do on the economic side is to move forward with 
an annual economic survey of each of the island areas. As I 
said, our monthly, quarterly, and annual surveys do not provide 
any coverage by State, so that would be a huge undertaking to 
try to redesign those to cover each----
    Mr. Faleomavaega. What would be the approximate cost to 
suggest if the insular areas are included in these three or 
four major surveys?
    Mr. Mesenbourg. The three or four being CPS----
    Mr. Faleomavaega. CIP, ABC, CIPP, whatever names that we 
put on this.
    Mr. Mesenbourg. We haven't developed a cost estimate for 
what it would take to do an annual economic survey, but it 
would be less than what it is to conduct the economic census. 
And the economic census in the four island areas plus Puerto 
Rico is, as I said, about $8 million to $9 million over a 5-
year cycle. So it would probably be $2 million or so, maybe 
less than that, if we were just doing the island areas.
    Mr. Faleomavaega. I realize that, but once you put the 
thing in place, then I am sure it would be a much lesser cost 
than the initial way of installing or organizing.
    I am sorry, Mr. Chairman, my time is up.
    Mr. Clay. The gentleman's time has expired, but thanks for 
the line of questions.
    Mr. Serrano is recognized for 5 minutes.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Mesenbourg, is it still the position, as I brought up 
before, of the census folks that the lack of inclusion at every 
level of the territories is a constitutional question? Has that 
been cleared at all yet, in your opinion?
    Mr. Mesenbourg. Well, in my 2 weeks in this job--
[laughter]--I must admit I am uninformed about that, but we can 
go back and check. It is my understanding that the 
apportionment number is the States. As I mentioned earlier, I 
am certainly not a constitutional scholar or lawyer.
    Mr. Serrano. No, and I didn't mean to rely on your 2 weeks, 
but, rather, your 30--what is it?
    Mr. Mesenbourg. Thirty-six, yes.
    Mr. Serrano. We have both been the same amount of time in 
this business. And that is what I meant, what you had heard 
throughout the years traditionally has been that it is a 
constitutional question. Is that still what you keep hearing 
from other folks at the Census Bureau?
    Mr. Mesenbourg. Well, I believe on the decennial census and 
on the household side that may be the question. If we go to the 
economic side, we have designed all of our current surveys 
basically, one of the primary objectives is to provide source 
data to the Bureau of economic Analysis for calculation of the 
GDP, and GDP right now does not include Puerto Rico or the 
territories. Consequently, since one of the primary purposes is 
to provide source data for the U.S. GDP, we have designed our 
surveys and samples in such a way that they do not provide any 
sub-national detail, because it is not needed.
    So what that does is permit us, for the service sector, for 
example, and the economic census stateside, we will mail forms 
to 2 million business locations. In our annual survey we will 
collect national level data from 50,000 firms, and on our 
quarterly survey we will collect it from 6,000 firms. So, if 
suddenly, we were required to provide data by States and 
territories, those samples would have to be hugely increased to 
be able to provide that.
    So on the economic side one of the main drivers has been 
what kind of data are needed for calculation of quarterly GDP 
in the United States.
    Mr. Serrano. Let me just finalize by asking you a semi-
related question. Is the next census form going to ask the same 
questions on race that it did before, in the same way? And I 
refer you to the fact--and I have said this at other hearings--
my experience in New York has been that the toughest questions 
for Puerto Ricans to fill is what race are you. In fact, I 
probably admit in public that I probably fill out my census 
form incorrectly. I checked off Hispanic, and under Hispanic I 
checked off Puerto Rican. Then it said what race are you--
Black, White, other. I checked off other. And when it said 
which other, I wrote Puerto Rican again. That is how a lot of 
folks see us and we see ourselves. So is that staying the same? 
Will I be asked to declare one of these days?
    Mr. Mesenbourg. I am not clear if we changed the question, 
but I know the content has been forwarded to the Congress in 
early April, so the content has been set. So whatever the 
questions are on those forms are the way that we plan to ask 
it.
    Mr. Serrano. Thank you. Because Puerto Ricans, as you know, 
fall under the all of the above category in one person. 
[Laughter.]
    Thank you so much. And once again, Tom, personally--I am 
sorry for the Tom--but we thank you for your service and we 
note not the 2-weeks, but the many, many years.
    Mr. Clay. Thank you, Mr. Serrano, for simplifying the 
census form for us.
    Let me thank both of our witnesses for the testimony today.
    I will allow closing statements for any Member who desires, 
starting with Mrs. Christensen.
    Mrs. Christensen. Thank you. I want to again recognize and 
thank you, Chairman Clay, for your leadership, your interest, 
and your willingness to work with our subcommittee and the 
territories on this, as you concede, very important and highly 
charged issue.
    I want to thank both Mr. Pula and Mr. Mesenbourg not only 
for your testimony today, but for your service in your 
respective agencies and to our Government and our country.
    I was very pleased with the level of expertise and 
engagement from all of our witnesses. It is clear that a 
problem exists in the way our fellow Americans living in the 
U.S. territories are counted. But it also seems to me that our 
Federal representatives have a willingness to further discuss 
these issues not just for the sake of talking about them, but 
for the purpose of resolving them.
    I am sure that Chairman Clay would agree that progress can 
and should be made, and that both of us would intend to 
continue our oversight responsibilities to ensure that we are 
all moving in the right direction.
    With that, Mr. Chairman, I want to point out that all of 
the Governors from each of the U.S. territories will likely be 
on the east coast in the coming months for the National 
Governors Association summer session. I believe that both the 
Census Bureau and the Department of the Interior should take 
advantage of this opportunity to begin those discussions and to 
start coming to an agreement on how data can begin to be 
compiled on our islands, and our subcommittees could help 
facilitate in this regard if needed.
    I want to recognize my ranking member, Mr. Fortuno, for his 
leadership on this issue for the people of Puerto Rico and for 
really actually initiating this discussion about census, and 
for the participation from all of our colleagues, both those 
representing Guam and American Samoa, Chairman Serrano, who has 
really been very, very helpful to the territories, and Mr. 
Burton, thank you for yours as well.
    But, Mr. Chairman, we couldn't have done it without you. 
Thank you very much.
    Mr. Clay. Thank you so much, Mrs. Christensen.
    Mr. Fortuno, you are recognized.
    Mr. Fortuno. Chairman Clay and Chairwoman Christensen, I 
want not thank you both for your leadership in this and for 
holding this hearing. I want to thank the panelists as well for 
their insight, and all of my colleagues for our interest.
    Certainly, it is obvious, and I echo the words stated 
earlier today by my dear friend from New York, Congressman 
Serrano. The founding fathers never intended for territories to 
last 100, 110 years in limbo, so this has repercussions on 
everything. This is just one of many other repercussions that 
we, as a Nation, are confronting, and one way or another we 
will have to face them. I hope we do it sooner, rather than 
later.
    But, in the meantime, we have to address the needs of the 
inhabitants of those territories, and certainly in the case of 
Puerto Rico and the U.S. Virgin Islands and some of the others, 
we are talking about U.S. citizens that proudly serve in our 
military and are part and parcel of the greatest Nation on 
Earth. So we welcome your insights and your input in trying to 
make sure that we address this unintended consequence of us 
having these territories that we were not supposed to have for 
so long. Thank you again.
    Mr. Clay. Thank you so much.
    Mr. Faleomavaega, you are recognized for closing.
    Mr. Faleomavaega. Mr. Chairman, not wanting to be 
repetitious, but I do want to thank again the distinguished 
chairwoman of our Insular Affairs Subcommittee, Mrs. 
Christensen, and our ranking member from Puerto Rico, Mr. 
Fortuno. If this is really not truly a spirit of 
bipartisanship, where we always try to work together, and to 
thank you, Mr. Chairman, for your initiative and your 
leadership in joining together with our subcommittee to conduct 
this hearing that is so important for the insular areas.
    I also want to commend my good friend from Indiana, Mr. 
Burton, for his leadership and the great help that he has given 
in allowing the insular areas to also be recipients of some of 
the programs dealing with Medicare and Medicaid. We have not 
forgotten that, Mr. Burton, and we truly want to thank you for 
thinking about us. Hopefully, the disparities that we now have 
come to discover about how the insular areas are being treated 
both by the Census Bureau, as well as the Department of Labor, 
that we should do something to remedy this situation.
    Again, Mr. Chairman, I thank you. And I do want to thank 
our excellent witnesses. I look forward to working with them in 
the coming months on this issue. Thank you again.
    Mr. Clay. Thank you very much.
    Mr. Burton.
    Mr. Burton. I will be very brief. I know that you are one 
of the leadership, you are the leaders in the census area. I 
wish you would carry the message back from all of us, those who 
are in the islands, but in the 50 several States as well, that 
we really think all American citizens, regardless of where they 
are, ought to be treated the same; and wherever there is a 
disparity, it ought to be corrected as quickly as possible. 
Thank you.
    Mr. Clay. Thank you, Mr. Burton.
    Mr. Serrano, any closing remarks?
    Mr. Serrano. Very briefly. Just to thank the leadership of 
the committee for allowing me to sit here today. I really 
appreciate it. And to let the folks in front of us know that it 
is not the Census Bureau, it is American society in general. 
For instance, and this will really go down in history as a 
profound statement, are you aware that major league baseball 
lists people born in the Bronx with Puerto Rican parents as 
native-born Americans, and their cousin, who was signed in 
Puerto Rico, as foreign baseball players? A couple of years ago 
there was a study done of foreign-born Members of Congress and 
I was listed. So there goes a bigger issue.
    Mr. Faleomavaega. Would the gentleman yield?
    Mr. Serrano. I yield.
    Mr. Faleomavaega. Is he aware that American Samoa produces 
more NFL players than any other State or territory in the 
United States? [Laughter.]
    Mr. Serrano. I am aware of that, but you guys can't hit a 
curve ball. [Laughter.]
    Thank you, Mr. Chairman.
    Mr. Clay. On behalf of myself and my colleagues, I would 
like to thank all of our witnesses for their testimony today 
and thank some of the colleagues here for enlightening us on 
major league baseball and football. I appreciate that.
    On a serious note, it is my hope that the parties here can 
immediately begin to interact and begin discussions toward 
solving these problems. If this subcommittee can help 
facilitate action in any manner, please get in touch with me or 
my staff. And, again, thank all of the Members for 
participating today.
    That concludes this hearing.
    [Whereupon, at 12:15 p.m., the subcommittees were 
adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4911.053

[GRAPHIC] [TIFF OMITTED] T4911.054

[GRAPHIC] [TIFF OMITTED] T4911.055

[GRAPHIC] [TIFF OMITTED] T4911.056

                                 <all>

</pre></body></html>
